APPENDIX

A

Case: 19-50404

Document: 00515378203

Page: 1

Date Filed: 04/09/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 19-50404

FILED
April 9, 2020
Lyle W. Cayce
Clerk

MARCUS TYLER SHEFFIELD,
Petitioner-Appellant
v.

LORIE DAVIS, DIRECTOR, TEXAS DEPARTMENT OF CRIMINAL
JUSTICE, CORRECTIONAL INSTITUTIONS DIVISION,
Respondent-Appellee

Appeal from the United States District Court
for the Western District of Texas
USDC No. 5:18-CV-385

Before JONES, HIGGINSON, and OLDHAM, Circuit Judges.
PER CURIAM:*
Marcus Tyler Sheffield, Texas prisoner # 2034529, was convicted in 2015
by a jury of two counts of sexual assault of a child and was sentenced to 10
years of imprisonment on both counts to run concurrently. He now moves for
a certificate of appealability (COA) to appeal the district court’s denial of his
28 U.S.C. § 2254 application.
Sheffield argues that his statement to police during an interview was
obtained in violation of Miranda v. Arizona, 384 U.S. 436 (1966). He also
* Pursuant to 5TH ClR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
ClR. R. 47.5.4.

Case: 19-50404

Document: 00515378203

Page: 2

Date Filed: 04/09/2020

No. 19-50404
argues that his trial counsel was ineffective for failing to investigate and to call
Dr. William Rogers as a witness about his treatment of Sheffield for a disorder
that affected Sheffield’s mental and physical development.
A COA may be issued “only if the applicant has made a substantial
showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). When
the district court rejects constitutional claims on their merits, a COA should
issue only if the petitioner “demonstrate[es] that jurists of reason could
disagree with the district court’s resolution of his constitutional claims or that
jurists could conclude the issues presented are adequate to deserve
encouragement to proceed further.” Miller-El v. Cockrell, 537 U.S. 322, 327
(2003); see Slack v. McDaniel, 529 U.S. 473, 483-84 (2000).
Sheffield has not made the requisite showing. Accordingly, his request
for a COA is DENIED. His motion to proceed in forma pauperis on appeal is
also DENIED.
To the extent Sheffield argues that the district court erred in denying
him appointed counsel, an order denying a motion for appointment of counsel
in a habeas proceeding is not a “final order” that disposes of the merits of a
habeas corpus proceeding for purposes of § 2253(c), and therefore is not subject
to the COA requirement. Harbison v. Bell, 556 U.S. 180, 183 (2009). Because
Sheffield has not shown that the district court erred in denying his request for
appointment of counsel, we AFFIRM in part.

See Pennsylvania v. Finley,

481 U.S. 551, 555 (1987); Schwander v. Blackburn, 750 F.2d 494, 502 (5th Cir.
1985).

2

APPENDIX

B

• Filed 03/25/2019 Page 1 of 17

C^se 5:18-cv-00385 Document 17

UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TEXAS
SAN ANTONIO DIVISION
MARCUS TYLER SHEFFIELD,
TDCJ No. 02034529,
Petitioner,
v.
LORIE DAVIS, Director,
Texas Department of Criminal Justice,
Correctional Institutions Division,
Respondent.

§
§
§
§
§
§
§
§
§
§
§
§

Civil No. SA-18-CA-0385-FB

MEMORANDUM OPINION AND ORDER
Before the Court are pro se petitioner Marcus Tyler Sheffield’s Petition for Writ of
Habeas Corpus pursuant to 28 U.S.C. § 2254 (ECF No. 1), respondent’s Answer (ECF No. 8),
and petitioner’s Reply thereto (ECF No. 14).

Having reviewed the record and pleadings

submitted by both parties, the Court concludes petitioner is not entitled to relief under the
standards prescribed by the Antiterrorism and Effective Death Penalty Act of 1996 (AEDPA).
See 28 U.S.C. § 2254(d). Petitioner is also denied a certificate of appealability.
I. Background
In November 2011, petitioner was charged by indictment with two counts of sexual abuse
of a child. (ECF No. 23-5 at 12-13). Prior to trial, a suppression hearing was held to determine
the admissibility of statements petitioner made to police admitting his guilt for the charged
offenses. A police report and a copy of petitioner’s video-recorded interview were submitted as
evidence at the hearing. On October 1, 2012, the trial court granted petitioner’s motion to
suppress and issued written findings of fact and conclusions of law to support its ruling. (ECF
No. 11-2 at 70, 112-16). The state filed an interlocutory appeal arguing the trial court erred in
finding a violation of petitioner’s rights under Miranda v. Arizona, 384 U.S. 436 (1966), because

Case 5:18-cv-00385 Document 17

Filed 03/25/2019 Page 2 of 17

petitioner was not in custody at the time of his interview with police and thus his interview did
not rise to the level of a custodial interrogation. (ECF No. 9-9). In an opinion dated December
30, 2014, the Third Court of Appeals agreed with the state, reversed the trial court’s order of
suppression, and remanded for further proceedings. State v. Sheffield, No. 03-12-00669-CR,
2014 WL 7474211 (Tex. App.-Austin, Dec. 30, 2014, no pet.) (ECF No. 9-14).
A jury subsequently convicted petitioner of both counts alleged in the indictment and
assessed punishment at ten years of imprisonment for each offense, with the sentences to run
concurrently. State v. Sheffield, No. CR2011-575 (207th Dist. Ct, Comal Cnty., Tex. Oct. 21,
2015) (ECF No. 11-2 at 200-05), On appeal, petitioner’s court-appointed counsel filed an
uncontested Anders brief stating that the record presented no arguably meritorious grounds for
review. (ECF No. 11-19). Following an independent review of the record, the court of appeals
agreed with counsel that the appeal was frivolous and affirmed the judgment of the trial court.
Sheffield v. State, No. 03-15-00627-CR, 2016 WL 6408005 (Tex. App.-Austin, Oct. 27, 2016,
no pet.) (ECF No. 11-21). Petitioner did not attempt to appeal this decision by filing a petition
for discretionary review with the Texas Court of Criminal Appeals (TCCA).
Instead, petitioner filed a state habeas corpus application challenging the constitutionality
of his state court conviction and sentence on August 8, 2017. Ex parte Sheffield, No. 87,449-01
(Tex. Crim. App. Aug. 8, 2017) (ECF No. 11-31 at 23). The state habeas application contained
the following allegations: (1) petitioner’s statement was taken despite having invoked his right to
counsel, which police ignored, (2) petitioner was coerced into being a witness against himself, as
he did not voluntarily, knowingly, and intelligently waive his rights prior to making his
statement, (3) the interview with police constituted a custodial interrogation because he was not
free to move around or use the restroom without a police escort, and (4) petitioner’s trial counsel

2

Filed 03/25/2019 Page 3 of 17

Case 5:18-cv-00385 Document 17

rendered ineffective assistance by failing to properly investigate the case or object to the
admission of petitioner’s statement to police.

The TCCA denied petitioner’s state habeas

application without written order on January 24, 2018. (ECF No. 11-26).
Petitioner indicates he placed the instant federal habeas petition in the prison mail system
on April 27, 2018. (ECF No. 1 at 10). In the petition, petitioner raises two grounds for relief:
(1) his self-incriminating statement to police was obtained unlawfully and should not have been
admitted at trial, and (2) his counsel rendered ineffective assistance by failing to investigate and
call his doctor as a witness. On June 29, 2018, respondent filed an answer to petitioner’s federal
habeas petition, to which petitioner responded on October 9,2018. (ECF Nos. 8,14).
II. Standard of Review
Petitioner’s federal habeas petition is governed by the heightened standard of review
provided by the AEDPA. 28 U.S.C.A. § 2254. Under § 2254(d), a petitioner may not obtain
federal habeas corpus relief on any claim that was adjudicated on the merits in state court
proceedings unless the adjudication of that claim either: (1) resulted in a decision that was
contrary to, or involved an unreasonable application of, clearly established federal law, as
determined by the Supreme Court of the United States, or (2) resulted in a decision that was
based on an unreasonable determination of the facts in light of the evidence presented in the state
court proceeding. Brown v. Payton, 544 U.S. 133, 141 (2005). This intentionally difficult
standard stops just short of imposing a complete bar on federal court relitigation of claims
already rejected in state proceedings. Harrington v. Richter, 562 U.S. 86, 102 (2011) (citing
Felker v. Turpin, 518 U.S. 651, 664 (1996)).
A federal habeas court’s inquiry into unreasonableness should always be objective rather
than subjective, with a focus on whether the state court’s application of clearly established

3

Filed 03/25/2019 Page 4 of 17

Case 5:18-cv-00385 Document 17

federal law was “objectively unreasonable” and not whether it was incorrect or erroneous.
McDaniel v. Brown, 558 U.S. 120 (2010); Wiggins v. Smith, 539 U.S. 510, 520-21 (2003). Even
a strong case for relief does not mean the state court’s contrary conclusion was unreasonable,
regardless of whether the federal habeas court would have reached a different conclusion itself.
Richter, 562 U.S. at 102. Instead, a petitioner must show that the decision was objectively
unreasonable, which is a “substantially higher threshold.” Schriro v. Landrigan, 550 U.S. 465,
473 (2007); Lockyer v. Andrade, 538 U.S. 63, 75-76 (2003). So long as “fairminded jurists
could disagree” on the correctness of the state court’s decision, a state court’s determination that
a claim lacks merit precludes federal habeas relief. Richter, 562 U.S. at 101 (citing Yarborough
v. Alvarado, 541 U.S. 652, 664 (2004)). In other words, to obtain federal habeas relief on a
claim previously adjudicated on the merits in state court, petitioner must show that the state
court’s ruling “was so lacking in justification that there was an error well understood and
comprehended in existing law beyond any possibility for fairminded disagreement.” Id. at 103;
see also Bobby v. Dixon, 565 U.S. 23, 24 (2011).
in. Analysis
A.

Petitioner’s Statement (Claim 1).
In his first allegation, petitioner contends the admission of his self-incriminating

statements to police violated his Miranda rights. According to petitioner, his confession is the
result of a coercive custodial interrogation wherein his request for an attorney was ignored.
Petitioner’s argument was rejected by the Third Court of Appeals during the interlocutory appeal
proceeding and again by the TCCA during petitioner’s state habeas proceedings. As discussed
below, petitioner fails to show that either court’s determination was contrary to, or involved an

4

Filed 03/25/2019 Page 5 of 17

Case 5:18-cv-00385 Document 17

unreasonable application of, federal law, or that it was an unreasonable determination of the
facts based on the evidence in the record.
1.

Relevant Facts

The relevant facts surrounding petitioner’s statement to police were accurately
summarized by the Third Court of Appeals during the interlocutory appeal proceeding:
According to the evidence presented at the suppression hearing,
[petitioner] gave his friend, Steven Villarreal, a ride to meet “Valerie” and her
friend, “Maria,” both aged fourteen.1 [Petitioner] was nineteen years old at the
time. One week after this gathering, Valerie gave a forensic interview in which
she admitted to having sexual intercourse with Villarreal. Valerie also told the
forensic interviewer that she saw Maria performing oral sex on [petitioner].
On August 3, 2011, Detective Schroeder of the New Braunfels Police
Department (NBPD) met with [petitioner] at [petitioner]’s house and told him that
he was investigating a case involving [petitioner]. The detective asked
[petitioner] to come to the police station to make a voluntary statement, and
[petitioner] agreed. In the video-recorded interview, [petitioner] conceded that he
drove himself to the police station and was there voluntarily. He was told that he
could leave at any time.
During his interview, [petitioner] told Detective Schroeder his side of the
story, explaining that Valerie and Maria appeared to be underage and that he
believed that Villarreal had sex with Valerie. However, [petitioner] insisted that
he did not have any sexual contact with Maria. Detective Schroeder said that
[petitioner’s version of events differed from what the detective was told by
others. Approximately forty minutes into the interview, Detective Schroeder
played a video of Valerie saying that she saw Maria performing oral sex on
[petitioner]. [Petitioner] again denied this happened. Detective Schroeder said
that Villarreal confirmed everything that Valerie said and told [petitioner], “Just
so you know, you can hear it for yourself.” Before Detective Schroeder could
start the video recording of Villarreal’s interview, [petitioner] asked to go to the
restroom. Schroeder responded “You want to listen to this real quick?” and
started playing the video interview of Villarreal. Detective Schroeder is heard on
the video saying that the interview pertained to an investigation of [petitioner],
[Petitioner] again requested to go to the restroom, and Detective Schroeder
escorted him to and from the restroom.
When [petitioner] returned to the interview room, he asked if he was a
witness or a suspect. Detective Schroeder told [petitioner] that he was both and
To protect their privacy, the Third Court of Appeals referred to the underage victims by fictitious names. This
Court will do the same.
5

Filed 03/25/2019 Page 6 of 17

Case 5:18-cv-00385 Document 17

that he was trying to get [petitioner]’s side of the story. The following exchange
then occurred:
[PETITIONER]: As much as I want to continue this interview and
to be honest, with my little knowledge of specifically the law, I’m
not sure that I want to continue this interview right now without an
attorney, just because I don’t know what the police department’s
intentions are or the county’s in terms of charges or whatnot and I
believe that I need someone who can tell me what to do or not to
do. So, as much as I would love to continue and to be honest I
don’t know how much . . . basically I don’t know whether I’m
going to be looking at charges or not, and if that’s the case, then
regardless of whether I’m being honest or not.
[DETECTIVE]: That’s what I’m telling you right now. I’m telling
you exactly what it is. I understand your hesitance on you not
knowing if you want to continue or not.
[PETITIONER]: So you are saying that you are looking at charges
against me?
[DETECTIVE]: Let me show you . . . this is your evidence jacket;
this is your folder. O.K. This is where it’s already at, Marcus. So,
this is your opportunity to tell me exactly what happened.
[PETITIONER]: And then what?
[DETECTIVE]: If you’re honest with me, I’m taking it straight to
[the prosecutor]. I’m gonna give it to him. It’s already going this
far anyhow. I know you’ve already been deceptive with me. I
already know that. And you already know that I know that too.
Cause I’ve already got this [pointing to something on desk], I’ve
already got this [pointing to photographic evidence on the wall],
I’ve got Maria’s interview, I’ve got everything. I’ve got it all.
You were the last piece of the puzzle. So I want you to be honest
with me. [The prosecutor] wants you to be honest because he’s
going to be watching this right now....
[PETITIONER]: I know what your job is and your job is to put
people away, and as much as I want to be honest, I don’t want to
nail my own coffin shut.
[DETECTIVE]: My job is not to put people away. My job is to
find the evidence in die case, and I’ve already found it. My job is
to give you the opportunity, Marcus, to tell the truth, so when
people do have the decision to put you away or not, they can say,
‘Hey, was Marcus honest with me?’...
6

Filed 03/25/2019 Page 7 of 17

Case 5:18-cv-00385 Document 17

[PETITIONER]: If I’m honest with yon will I be leaving here
today?
[DETECTIVE]: Yes you are. When you walked in here and I told
you, you can come in here and I’ll let you walk out that door,
you’re dam right I am. That’s my word. But you got to tell me the
truth. Tell me the truth and tell [the prosecutor] the truth.
[Petitioner] sat silently for a moment, looking at the floor, and then said,
“It’s true.” He confirmed that he received oral sex from, and had intercourse
with, Maria. After another minute-and-a-half of being questioned and providing
admissions, [petitioner] told Detective Schroeder, “I don’t think I can keep going
right this second. I’m going to come back tomorrow and finish.” Detective
Schroeder reiterated that [petitioner] “can walk right out this door at any time,”
but continued questioning [petitioner] for another minute or so. Detective
Schroeder then said, “All right, well, instead of going through the whole thing,
you asked to leave, I can’t stop you from leaving, and that’s your wishes, so I’m
gonna let you go.” As he was leaving [petitioner] asked, “Do you need me to
come back tomorrow or anything?” Detective Schroeder Uaid he would like for
[petitioner] to return and tell him everything that happened. [Petitioner] left the
station and did not return the next day. The interview lasted just over one hour.
On August 18—fifteen days after [petitioner’s station-house
interview—an arrest warrant was issued for [petitioner]. He was then arrested for
two counts of sexual assault of a child.
State v. Sheffield, 2014 WL 7474211, *1-2 (ECF No. 9-14 at 1-5).
2.

Reviewing Claims Under Miranda

The Fifth Amendment’s prohibition against compelled self-incrimination requires that an
accused be advised of his right to remain silent and his right to the presence of an attorney prior
to custodial interrogation. Miranda, 384 U.S. at 479; Dickerson v. United States, 530 U.S. 428,
435 (2000) (explaining that Miranda protections are constitutionally required). Absent these
warnings or their “fully effective equivalent,” the state may not offer a defendant’s resulting
custodial statements as evidence of his guilt. Miranda, 384 U.S. at 476.
The relevant question in this case is whether petitioner’s interview with police at the
police station amounted to a custodial interview which triggered petitioner’s Miranda rights.
The Supreme Court has held that Miranda warnings are not required “simply because the
7

Filed 03/25/2019 Page 8 of 17

Case 5:18-cv-00385 Document 17

questioning takes place in the station house, or because the questioned person is one whom the
police suspect.”

California v. Beheler, 463 U.S. 1121, 1125 (1983) (quoting Oregon v.

Mathiason, 429 U.Si 492, 495 (1977)). Rather, a suspect is “in custody” for purposes of
Miranda “when placed under formal arrest or when a reasonable person in the suspect’s position
would have understood the situation to constitute a restraint on freedom of movement of the
degree which the law associates with formal arrest.” United States v. Bengivenga, 845 F.2d 593,
596 (5th Cir. 1988) (en banc) (quoting Miranda, 384 U.S. at 479).
Petitioner was not formally arrested at the time he was questioned by police; as such, the
only relevant inquiry “is how a reasonable man in the suspect’s position would have understood
his situation.” Stansburyv. California, 511 U.S. 318, 324 (1994); United States v. Courtney, 463
F.3d 333, 337 (5th Cir. 2006). This reasonable-person standard “is an objective inquiry” that
depends on the “totality of circumstances.” J.D.B. v. North Carolina, 564 U.S. 261, 131 (2011);
United States v. Cavazos, 668 F.3d 190, 193 (5th Cir. 2012) (quoting Beheler, 463 U.S. at 1125).
To aid in this custody inquiry, the Fifth Circuit has identified several relevant factors. United
States v. Wright, 111 F.3d 769 (5th Cir. 2015); see also United States v. Coleman, 610 F. App’x.
347, 353 (5th Cir. 2015) (unpublished). These factors include: (1) the length of the questioning;
(2) the location of the questioning; (3) the accusatory, or non-accusatory nature of the
questioning; (4) the amount of restraint on the individual’s physical movement; and (5)
statements made by officers regarding the individual’s freedom to move or leave. Wright, 111
F.3d at 775. No one fact is determinative: Id.
3.

Application of the Miranda Standard

Petitioner raised this allegation dining his state habeas proceedings, but the TCCA denied
relief without written order. (ECF No. 11-26). Thus, this Court “should Took through’ the

8

Filed 03/25/2019 Page 9 of 17

Case 5:18-cv-00385 Document 17

unexplained decision to the last related state-court decision providing” particular reasons, both
legal and factual, “presume that the unexplained decision adopted the same reasoning,” and give
appropriate deference to that decision. Wilson v. Sellers, 138 S. Ct. 1188, 1191-92 (2018);
Uranga v. Davis, 82 F.3d 282, 287 n.33 (5th Cir. 2018). In other words, because the TCCA
summarily rejected petitioner’s claim without explanation, this Court should look through to the
last clear state decision on the matter when reviewing the claim under AEDPA’s deferential
standard. See Ylst v. Nunnemaker, 501 U.S. 797, 803 (1991); Bledsue v. Johnson, 188 F.3d 250,
256 (5th Cir. 1999).
In this case, the last reasoned state court decision was issued by the intermediate court of
appeals following the state’s interlocutory appeal.2 After setting forth the relevant standard for
determining whether an individual is in custody for Miranda purposes, the court concluded that
petitioner’s interview with police did not constitute a custodial interrogation:
[Petitioner] was not physically deprived of his freedom of action in any
significant way. The record shows that [petitioner] came to the police station
voluntarily in his own vehicle. He was told twice during his video-recorded
interview that he did not have to answer any questions and that he could leave at
any time. [Petitioner] was never physically restrained. He was allowed to go to
the restroom shortly after requesting to do so. And when [petitioner] said that he
did not want to continue with the interview and wanted to finish it the next day,
he was allowed to leave the station. The questioning lasted just over an hour.
Detective Schroeder did not create a situation that would lead a reasonable person
to believe that his freedom of movement was significantly restricted.
[Petitioner]’s freedom of movement was not restricted to a degree associated with
an arrest.
Although Detective Schroeder did indicate to [petitioner] that there was
probable cause to arrest him by showing him the investigation file and telling him
that he has “got it all” (referring to evidence against [petitioner]), afterward
Detective Schroeder told [petitioner] he could leave and allowed him to do so.
Based on the totality of the circumstances, we cannot conclude that Detective
2
In its Order Recommending the Denial of Art. 11.07 Application, the state habeas trial court rejected
petitioner’s claim by adopting the state’s answer as its findings of fact and conclusions of law. (ECF No. 11-31 at
53). In its answer, the state relied, in part, on the fact that this issue had already been raised and rejected in the
interlocutory appeal. Thus, to the extent the trial court’s recommendation is the last reasoned state court decision on
the issue and not the interlocutory appeal opinion, the result is the same.
9

Filed 03/25/2019 Page 10 of 17

Case 5:18-cv-00385 Document 17

Schroeder’s statement about the evidence he had compiled “would lead a
reasonable person to believe that he is under restraint to the degree associated
with an arrest.”
Reviewing the interview in its totality, we conclude that the objective
circumstances of the questioning were non-custodiai in nature. The case at hand
is similar to many cases considered by the United States Supreme Court, the court
of criminal appeals, and this Court—all of which have come to the conclusion
that the accused was not in custody during questioning, and thus not entitled to
Miranda or article 38.22 warnings.135 In these cases, the accused voluntarily came
to the police station, was either told he or she was not under arrest or was free to
leave, was told he or she did not have to answer any questions, and then the
accused was allowed to leave the station house after making incriminating
statements.
State v. Sheffield, 2014 WL 7474211, *3 (ECF No. 9-14 at 8-9).
Petitioner fails to show that the state court’s determination was contrary to, or involved
an unreasonable application of, federal law, or that it was an unreasonable determination of the
facts based on the evidence in the record. A state appellate court’s determination is entitled to
great deference when, as was done in this case, the court conducted a thorough and thoughtful
review of the evidence. Callins v. Collins, 998 F.2d 269, 276 (5th Cir. 1993). Petitioner has not
shown that the state court’s ruling “was so lacking in justification that there was an error well
understood and comprehended in existing law beyond any possibility for faiiminded
disagreement” Richter, 562 U.S. at 103.
Moreover, this Court has independently reviewed the video recording and record of these
proceedings and finds the statement in question was not obtained through a custodial
interrogation. The record reveals petitioner voluntarily drove to the police station at the request
of Detective Schroeder and voluntarily spoke with the detective for about an hour, during which
time petitioner was repeatedly informed he was free to leave at any time. Although the nature of

3
See, e.g., California v. Beheler, 463 U.S. 1121 (1983); Oregon v. Mathiason, 429 U.S. 492, 493-95 (1977); Estrada v.
State, 313 S.W.3d 274, 288-95 (Tex. Crim. App. 2010); Gardner v. State, 306 S.W.3d 274, 293-95 (Tex. Crim. App. 2009);
Meekv. State, 790 S.W.2d 618, 620 (Tex. Crim. App. 1990); State v. Dickerson, No, 03-10-00536-CR, 2012 WL 3055526, at
*7-8 (Tex. App.—Austin July 27, 2012, pet. refd) (mem. op., not designated for publication).

10

Filed 03/25/2019 Page 11 of 17

Case 5:18-cv-00385 Document 17

the conversation became accusatory toward the end, Detective Schroeder reiterated that
petitioner could “walk right out this door at any time,” which petitioner did moments later. This
is not a situation where a reasonable person would have thought they were under arrest and
unable to terminate the interview or leave,

Stansbury, 511 U.S. at 324 (holding “the only

relevant inquiry is how a reasonable man in the suspect’s position would have understood his
situation.”). Thus, viewing all of the evidence under the deferential standard that applies on
federal habeas review, petitioner has not shown that the state court’s decision was objectively
unreasonable or that he is entitled to relief on his Miranda allegation.
4.

Harmless Error

Even assuming that the trial court erred in admitting the recorded statement, petitioner
would still not be entitled to relief because the error was harmless. Arizona v. Fulminante, 499
U.S. 279, 310 (1991) (holding that the admission of an involuntary confession is subject to
harmless error analysis); Hopkins v. Cockrell, 325 F.3d 579, 585 (5th Cir. 2003) (same). In
order to be entitled to federal habeas relief, the error must have had “substantial and injurious
effect or influence in determining the jury’s verdict.” Hopkins, 325 F.3d at 585 (citing Brecht v.
Abrahamson, 507 U.S. 619, 637-38 (1993)). Petitioner does not make this showing.
As noted by respondent, petitioner’s conviction rested on compelling testimony from
Maria, the victim, and by petitioner’s friend, Steven Villarreal. Maria testified that petitioner
grabbed her by the hair, took her clothes off, and forced her to perform oral sex on him before
forcing her to turn around so he could have vaginal intercourse with her. (ECF No. 11-8 at 4850). Steven Villarreal, who pleaded guilty to a sex offense committed the same night involving
Maria’s friend, Valerie, corroborated Maria’s testimony and testified that petitioner told him on
the way home that he had a good time and plenty of sex with Maria, including both oral and

11

Filed 03/25/2019 Page 12 of 17

Case 5:18-cv-00385 Document 17

penetration. Id. at 78. Detective Schroeder also testified that Valerie had stated that she had
seen an offense involving Maria and petitioner. Id. at 100. Thus, in light of the strong amount
of evidence presented in this case demonstrating petitioner’s guilt other than his videotaped
confession, any error in admitting the confession is harmless and had no prejudicial effect on the
jury’s ultimate guilty verdict. Brecht v. Abrahamson, 507 U.S. 619, 637 (1993). Federal habeas
relief is therefore denied.
B.

Trial Counsel (Claim 2).
Petitioner next alleges that his trial counsel was ineffective for failing to obtain his

medical records or call his doctor, Dr. William Rogers, to testify on his behalf. According to
petitioner, both he and his grandmother informed, counsel that he suffered from a disorder that
affected both his mental and physical development but counsel failed to further investigate.
Petitioner raised a similar, albeit watered-down version of this claim during his state habeas
proceedings by generically asserting that counsel failed to interview several witnesses, including
Dr. Rogers. In considering the totality of counsel’s representation, the state habeas trial court
found that counsel was not deficient but rather “zealously advocated for his client,” and
determined petitioner’s writ was frivolous. Thereafter, the TCCA denied petitioner state habeas
relief without written order. Petitioner fails to demonstrate the state court’s rejection of the
claim was contrary to, or an unreasonable application of, Supreme Court precedent.
1.

The Strickland Standard

Sixth Amendment claims concerning the alleged ineffective assistance of trial counsel
(IATC) are reviewed under the familiar two-prong test established in Strickland v. Washington,
466 U.S. 668 (1984). Under Strickland, a petitioner cannot establish a violation of his Sixth
Amendment right to counsel unless he demonstrates (1) counsel’s performance was deficient and

12

Filed 03/25/2019 Page 13 of 17

Case 5:18-cv-00385 Document 17

(2) this deficiency prejudiced his defense. 466 U.S. at 687-88, 690. According to the Supreme
Court, “[sjurmounting Strickland's high bar is never an easy task.” Padilla v. Kentucky, 559
U.S. 356, 371 (2010).
When determining whether counsel performed deficiently, courts “must be highly
deferential” to counsel’s conduct, and a petitioner must show that counsel’s performance fell
beyond the bounds of prevailing objective professional standards. Strickland, 466 U.S. at 68789. Counsel is “strongly presumed to have rendered adequate assistance and made all significant
decisions in the exercise of reasonable professional judgment.” Burt v. Titlow, 571 U.S. 12, 22
(2013) (quoting Strickland, 466 U.S. at 690). To demonstrate prejudice, a petitioner “must show
that there is a reasonable probability that, but for counsel’s unprofessional errors, the result of
the proceeding would have been different.” Strickland, 466 U.S. at 694. Under this prong, the
“likelihood of a different result must be substantial, not just conceivable.” Richter, 562 U.S. at
112. A habeas petitioner has the burden of proving both prongs of the Strickland test. Wong v.
Belmontes, 558 U.S. 15, 27 (2009).
Finally, IATC claims are considered mixed questions of law and fact and are analyzed
under the “unreasonable application” standard of 28 U.S.C. § 2254(d)(1).

See Gregory v.

Thaler, 601 F 3d 347, 351 (5th Cir. 2010). Where, as here, the state court adjudicated the IATC
claims on the merits, a court must review a petitioner’s claims under the “doubly deferential”
standards of both Strickland and Section 2254(d). See Woods v. Etherton, 136 S. Ct. 1149, 1151
(2016) (citing Cullen v. Pinholster, 563 U.S. 170, 190 (2011)); Knowles v. Mirzayance, 556 U.S.
Ill, 112 (2009)). In such cases, the “pivotal question” is not “whether defense counsel’s
performance fell below Strickland’s standards,” but whether “the state court’s application of the
Strickland standard was unreasonable.” Richter, 562 U.S at 101. That is to say, the question to

13

Filed 03/25/2019 Page 14 of 17

Case 5:18-cv-00385 Document 17

be asked in this case is not whether counsel’s actions were reasonable, but whether “there is any
reasonable argument that counsel satisfied Strickland's deferential standard.” Id. at 105.
2.

Application of the Strickland Standard

Petitioner contends counsel was ineffective for failing to investigate and call Dr. Rogers
as a witness on his behalf to help the jury better understand petitioner’s mental state at the time
of the offense. Indeed, Strickland requires counsel to undertake a reasonable investigation.
Strickland, 466 U.S. at 690-91; Charles v. Stephens, 736 F.3d 380, 389 (5th Cir. 2013). Counsel
must, at minimum, interview potential witnesses and make an independent investigation of the
facts and circumstances of the case. Kately v. Cain, 704 F.3d 356, 361 (5th Cir. 2013). But in
assessing the reasonableness of counsel’s investigation, a heavy measure of deference is applied
to counsel’s judgments. Strickland, 466 U.S. at 691.
In particular, complaints of uncalled witnesses are not favored in federal habeas corpus
review because the presentation of testimonial evidence is a matter of trial strategy and because
allegations of what the witness would have testified are largely speculative. Sayre v. Anderson,
238 F.3d 631, 635-36 (5th Cir. 2001) (citing Lockhart v. McCotter, 782 F.2d 1275, 1282 (5th
Cir. 1986)). Thus, to prevail on an IATC claim based on counsel’s failure to call a witness, the
petitioner must name the witness, demonstrate the witness was available to testify, delineate the
content of the witness’s proposed testimony, and show the testimony would have been favorable
to the defense. Day v. Quarterman, 566 F.3d 527, 538 (5th Cir. 2009); Evans v. Cockrell, 285
F.3d 370, 377 (5th Cir. 2002) (providing petitioner must “bring forth” evidence, such as
affidavits, from uncalled witnesses, including expert witnesses, in support of an IATC claim).
In this case, although petitioner names Dr. Rogers as the uncalled witness, he fails to
demonstrate that Dr. Rogers was available to testify or that he would have testified about

14

Filed 03/25/2019 Page 15 Of 17

Case 5:18-cv-00385 Document 17

petitioner’s unspecified medical condition. Moreover, petitioner offers nothing but conclusory
assertions regarding the favorability of having Dr. Rogers testify on his behalf about this
condition.

Such “conclusory statements regarding the content of the uncalled witnesses

testimony are insufficient to demonstrate ineffective assistance.” Gregory v. Thaler, 601 F.3d
347, 353 (5th Cir. 2010); see also Del Toro v. Quarterman, 498 F.3d 486, 490-91 (5th Cir. 2007)
(finding counsel’s choice to not hire an expert reasonable under the circumstances). As a result,
petitioner has not shown counsel’s performance was deficient or that the state court’s denial of
this claim was an unreasonable application of Strickland.
Regardless, even if petitioner could establish that counsel’s performance in this case
constituted deficient performance, he still fails to demonstrate that the alleged error was
prejudicial to his defense. Again, to demonstrate prejudice, a petitioner “must show that there is
a reasonable probability that, but for counsel’s unprofessional errors, the result of the proceeding
would have been different.” Strickland, 466 U.S. at 694. “[A] court assessing prejudice must
consider the totality of the evidence before the judge or jury.” Mejia v. Davis, 906 F.3d 307, 315
(5th Cir. 2018) (quoting Strickland, 466 U.S. at 696) (internal quotation marks omitted).
Petitioner has not established that the alleged error was prejudicial with regard to his
guilt because, as the record demonstrates, the state’s case was strong and there was substantial
corroborated evidence against petitioner. See Berghuis v. Thompkins, 560 U.S. 370, 390 (2010)
(noting the weight of the evidence of guilt in finding alleged deficient performance of counsel
not prejudicial); Pondexter v. Quarterman, 537 F.3d 511, 525 (5th Cir. 2008). With regard to his
punishment, petitioner also has not established prejudice given the speculative nature of the
proposed testimony, the nature of the offense, and the fact that he received only ten years in the
face of a possible twenty-year sentence. Because petitioner is unable to establish that counsel’s

15

Filed 03/25/2019 Page 16 Of 17

Case 5:18-cv-00385 Document 17

performance was deficient or that he was prejudiced by counsel’s alleged errors, the state court’s
denial of petitioner’s IATC allegation was not an unreasonable application of Strickland.
Federal habeas relief is therefore denied.
IV. Certificate of Appealability
The Court must now determine whether to issue a certificate of appealability (COA) . See
Rule 11(a) of the Rules Governing § 2254 Proceedings; Miller-El v. Cockrell, 537 U.S. 322,
335-36 (2003) (citing 28 U.S.C. § 2253(c)(1)). A COA may issue only if a petitioner makes “a
substantial showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). If a district
court rejects a petitioner’s constitutional claims on the merits, the petitioner must demonstrate
“that reasonable jurists would find the district court’s assessment of the constitutional claims
debatable or wrong.” Slack v. McDaniel, 529 U.S. 473, 484 (2000). This requires a petitioner to
show “that reasonable jurists could debate whether the petition should have been resolved in a
different manner or that the issues presented were ‘adequate to deserve encouragement to
proceed further.’” Miller-El, 537 U.S. at 336 (citation omitted).
A district court may deny a COA sua sponte without requiring further briefing or
argument. See Alexander v. Johnson, 211 F.3d 895, 898 (5th Cir. 2000). For the reasons set
forth above, the Court concludes that jurists of reason would not debate the conclusion that
petitioner was not entitled to federal habeas relief. As such, a COA will not issue.
V. Conclusion and Order
Petitioner has failed to establish that the state court’s rejection of the aforementioned
claims on the merits during his state habeas corpus proceeding was either (1) contrary to, or
involved an unreasonable application of, clearly established federal law, as determined by the
Supreme Court of the United States, or (2) based on an unreasonable determination of the facts

16

Filed 03/25/2019 Page 17 of 17

Case 5:18-cv-00385 Document 17

in light of the evidence presented during petitioner’s state trial and appellate proceedings, As a
result, petitioner’s federal habeas corpus petition does not warrant relief.
Accordingly, based on the foregoing reasons, IT IS HEREBY ORDERED that:
1.

Federal habeas corpus relief is DENIED and petitioner Marcus Tyler Sheffield’s

Petition for Writ of Habeas Corpus pursuant to 28 U.S.C. § 2254 (ECF No. 1) is DISMISSED
WITH PREJUDICE;
2.

No Certificate of Appealability shall issue in this case; and

3.

All other remaining motions, if any, are DENIED, and this case is now

CLOSED.
It is so ORDERED.
SIGNED this 25th day of March, 2019.
2
f:

D-BIERY
ttGdgT
TED STATES DISTRIC

17

APPENDIX

c

Case: 19-50404

Document: 00515422815

Page: 1

Date Filed: 05/20/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-50404
MARCUS TYLER SHEFFIELD,
Petitioner - Appellant

LORIE DAVIS, DIRECTOR, TEXAS DEPARTMENT OF CRIMINAL
JUSTICE, CORRECTIONAL INSTITUTIONS DIVISION,
Respondent - Appellee

Appeal from the United States District Court for the
Western District of Texas
ON PETITION FOR REHEARING
Before JONES, HIGGINSON and OLDHAM, Circuit Judges.
PER CURIAM:
IT IS ORDERED that appellant's motion for leave to file petition for
rehearing out of time is GRANTED. IT IS FURTHER ORDERED that the
petition for rehearing is DENIED.

ENTERED FOR THE COURT:
/s/Edith H. Jones
UNITED STATES CIRCUIT JUDGE

APPENDIX

D

NO. 03-12-00669-CR
TEXAS COURT OF APPEALS, THIRD DISTRICT, AT AUSTIN

State v. Scheffield
Decided Dec 30, 2014

NO. 03-12-00669-CR
12-30-2014
State of Texas, Appellant v. Marcus Tyler Scheffield, Appellee
Scott K. Field, Justice
FROM THE DISTRICT COURT OF COMAL COUNTY, 274TH JUDICIAL DISTRICT
NO. CR2011-575, HONORABLE GARY L. STEEL, JUDGE PRESIDING

MEMORANDUM OPINION
Appellee Marcus Tyler Scheffield has been charged with two counts of sexual assault of a child. See Tex. Penal
Code § 22.011 (a)(2). In this interlocutory appeal, the State challenges the trial court's pretrial order granting
Scheffield's motion to suppress statements that he made to a detective during the investigation. The State
asserts that Scheffield's statements are admissible because he was not in custody and his interview did not rise
to the level of a custodial interrogation. We reverse the trial court's order of suppression and remand this case
for further proceedings.

BACKGROUND
2

According to the evidence presented at the suppression hearing, Scheffield gave his friend, Steven Villarreal, a
ride to meet "Valerie" and her friend, "Maria," both aged fourteen.1 *2 Scheffield was nineteen years old at the
time. One week after this gathering, Valerie gave a forensic interview in which she admitted to having sexual
intercourse with Villarreal. Valerie also told the forensic interviewer that she saw Maria performing oral sex on
Scheffield.
l

To protect their privacy, we refer to the underage victims by fictitious names.

On August 3, 2011, Detective Schroeder of the New Braunfels Police Department (NBPD) met with Scheffield
at Scheffield's house and told him that he was investigating a case involving Scheffield. The detective asked
Scheffield to come to the police station to make a voluntary statement, and Scheffield agreed. In the videorecorded interview, Scheffield conceded that he drove himself to the police station and was there voluntarily.
He was told that he could leave at any time.
During his interview, Scheffield told Detective Schroeder his side of the story, explaining that Valerie and
Maria appeared to be underage and that he believed that Villarreal had sex with Valerie. However, Scheffield
insisted that he did not have any sexual contact with Maria. Detective Schroeder said that Scheffield's version
of events differed from what the detective was told by others. Approximately forty minutes into the interview,
Detective Schroeder played a video of Valerie saying that she saw Maria performing oral sex on Scheffield.

casetext

1

State v. Scheffield

3

NO. 03-12-00669-CR (Tex. App. Dec. 30, 2014)

Scheffield again denied this happened. Detective Schroeder said that Villarreal confirmed everything that
Valerie said and told Scheffield, "Just so you know, you can hear it for yourself." Before Detective Schroeder
could start the video recording of Villarreal's interview, Scheffield asked to go to the restroom. Schroeder
responded "You want to listen to this real quick?" and started playing the video interview of Villarreal.
Detective Schroeder is heard on the video saying that the interview pertained to an investigation of Marcus
Tyler Scheffield. Scheffield again requested to go to the restroom, and Detective Schroeder escorted him to and
from the restroom. *3
When Scheffield returned to the interview room, he asked if he was a witness or a suspect. Detective Schroeder
told Scheffield that he was both and that he was trying to get Scheffield's side of the story. The following
exchange then occurred:

casetext

2

State v. Scheffield

NO. 03-12-00669-CR (Tex. App. Dec. 30, 2014)

[SCHEFFIELD]: As much as I want to continue this interview and to be honest, with my little
knowledge of specifically the law, I'm not sure that I want to continue this interview right now without
an attorney, just because I don't know what the police department's intentions are or the county's in
terms of charges or whatnot and I believe that I need someone who can tell me what to do or not to do.
So, as much as I would love to continue and to be honest I don't know how much ... basically I don't
know whether I'm going to be looking at charges or not, and if that's the case, then regardless of
whether I'm being honest or not.

[DETECTIVE]: That's what I'm telling you right now. I'm telling you exactly what it is. I understand
your hesitance on you not knowing if you want to continue or not.

[SCHEFFIELD]: So you are saying that you are looking at charges against me?

[DETECTIVE]: Let me show you ... this is your evidence jacket; this is your folder. O.K. This is
where it's already at, Marcus. So, this is your opportunity to tell me exactly what happened.

[SCHEFFIELD]: And then what?

[DETECTIVE]: If you're honest with me, I'm taking it straight to [the prosecutor]. I'm gonna give it to
him. It's already going this far anyhow. I know you've already been deceptive with me. I already know
that. And you already know that I know that too. Cause I've already got this [pointing to something on
desk], I've already got this [pointing to photographic evidence on the wall], I've got Maria's interview,
I've got everything. I've got it all. You were the last piece of the puzzle. So I want you to be honest with
me. [The prosecutor] wants you to be honest because he's going to be watching this right now.

4

*4

^ casetext

3

State v. Scheffield

NO. 03-12-00669-CR (Tex. App. Dec. 30, 2014)

[SCHEFFIELD]: I know what your job is and your job is to put people away, and as much as I want to
be honest, I don't want to nail my own coffin shut.

[DETECTIVE]: My job is not to put people away. My job is to find the evidence in the case, and I've
already found it. My job is to give you the opportunity, Marcus, to tell the truth, so when people do
have the decision to put you away or not, they can say, 'Hey, was Marcus honest with me?'....

[SCHEFFIELD]: If I'm honest with you will I be leaving here today?

[DETECTIVE]: Yes you are. When you walked in here and I told you, you can come in here and I'll let
you walk out that door, you're dam right I am. That's my word. But you got to tell me the truth. Tell me
the truth and tell [the prosecutor] the truth.

5

Scheffield sat silently for a moment, looking at the floor, and then said, "It's true." He confirmed that he
received oral sex from, and had intercourse with, Maria. After another minute-and-a-half of being questioned
and providing admissions, Scheffield told Detective Schroeder, "I don't think I can keep going right this
second. I'm going to come back tomorrow and finish." Detective Schroeder reiterated that Scheffield "can walk
right out this door at any time," but continued questioning Scheffield for another minute or so. Detective
Schroeder then said, "All right, well, instead of going through the whole thing, you asked to leave, I can't stop
you from leaving, and that's your wishes, so I'm gonna let you go." As he was leaving Scheffield asked, "Do
you need me to come back tomorrow or anything?" Detective Schroeder said he would like for Scheffield to
return and tell him everything that happened. Scheffield left the station and did not return the next day. The
interview lasted just over one hour. *5
On August 18—fifteen days after Scheffield's station-house interview—an arrest warrant was issued for
Scheffield. He was then arrested for two counts of sexual assault of a child. Prior to trial, Scheffield filed a
motion to suppress statements he made to Detective Schroeder. The evidence presented at the suppression
hearing consisted of the offense report and a copy of Scheffield's video-recorded interview at the police station.
The trial court granted the motion to suppress, noting that Scheffield "invoked right to counsel at time 15:59 on
tape." The trial court issued written findings of fact and conclusions of law to support its ruling. The State filed
this interlocutory appeal challenging the trial court's order suppressing Scheffield's statements. See Tex. Code
Crim. Proc. art. 44.01(a)(5) (granting State right to appeal pretrial order suppressing evidence ifjeopardy has
not attached).

STANDARD OF REVIEW
We review a trial court's ruling on a motion to suppress evidence for an abuse of discretion. Crain v. State, 315
S.W.3d 43,48 (Tex. Crim. App. 2010). A trial court abuses its discretion if its ruling is arbitrary or
unreasonable. State v. Mechler, 153 S.W.3d 435, 439 (Tex. Crim. App. 2005). A trial court's ruling on a motion
to suppress will be affirmed if it is reasonably supported by the record and is correct under any theory of law
applicable to the case. Young v. State, 283 S.W.3d 854, 873 (Tex. Crim. App. 2009).

casetext

4

State v. Scheffield

6

NO. 03-12-00669-CR (Tex. App. Dec. 30, 2014)

"In reviewing a trial court's ruling on a Miranda-violation claim, an appellate court conducts a bifurcated
review." Alford v. State, 358 S.W.3d 647, 652 (Tex. Crim. App. 2012); see also Miranda v. Arizona, 384 U.S.
436 (1966). We afford almost total deference to a trial court's determination of historical facts, but review pure
questions of law de novo. Alford, 358 S.W.3d *6 at 652. Likewise, we give almost total deference to a trial
court's resolution of a mixed question of law and fact if the question turns on the credibility and demeanor of
witnesses. Id. However, if credibility and demeanor are not necessary to the resolution of a mixed question of
law and fact, we review the question de novo. See id.; Young, 283 S.W.3d at 873.
"The decision as to whether custodial questioning constitutes 'interrogation' under Miranda is a mixed question
of law and fact." Alford, 358 S.W.3d at 653. When, as here, the custodial questioning has been videotaped and
the underlying events are not in dispute, the trial court's ruling is merely an application of uncontested facts to
the law. See Herrera v. State, 194 S.W.3d 656, 659 (Tex. App.—Houston [14th Dist.] 2006, pet. ref d); Mayes v.
State, 8 S.W.3d 354, 358 (Tex. App.—Amarillo 1999, no pet.). Thus, we review the trial court's ruling on the
suppression motion de novo.

DISCUSSION
In its first point of error, the State asserts that the trial court erred in granting Scheffield's motion to suppress
the statements he made to Detective Schroeder. Specifically, the State asserts that Scheffield was not in custody
during his station-house questioning and his interview did not rise to the level of a custodial interrogation. As
such, the State contends, Scheffield was not entitled to be given Miranda warnings, nor was he entitled to have
counsel present.

Custodial Interrogation
7

The threshold issue in this case is whether Scheffield's interview amounted to a custodial interrogation. Both
the Miranda line of cases and article 38.22 of the Texas Code of *7 Criminal Procedure require that the accused
be properly admonished of certain constitutional rights in order for his statements "stemming from custodial
interrogation" to be admissible as evidence against him. See Miranda, 384 U.S. at 444; Tex. Code Crim. Proc.
art. 38.22 §§ 2, 3 (listing required admonishments for written and oral statements of accused). "By custodial
interrogation, we mean questioning initiated by law enforcement officers after a person has been taken into
custody or otherwise deprived of his freedom of action in any significant way." Miranda, 384 U.S. at 444. The
defendant bears the burden of proving that a statement was the product of a custodial interrogation. Herrera v.
State, 241 S.W.3d 520, 526 (Tex. Crim. App. 2007).
To determine whether an individual is in custody, a court must first examine all of the circumstances
surrounding the interrogation, but "the ultimate inquiry is simply whether there [was] a formal arrest or
restraint on freedom of movement of the degree associated with a formal arrest." Stansbury v. California, 511
U.S. 318, 322 (1994) (internal citations and quotations omitted). This determination of custody "depends on the
objecti ve circumstances of the interrogation, not on the subjective views harbored by either the interrogating
officers or the person being questioned." Id. at 323. After the circumstances surrounding the interrogation are
considered, the court must determine whether, "given those circumstances, would a reasonable person have felt
he or she was not at liberty to terminate the interrogation and leave." Thompson v. Keohane, 516 U.S. 99, 112
(1995); see also Herrera, 241 S.W.3d at 525.

8

The court of criminal appeals has identified four general situations that may constitute custody:2 *8

W2& casetext

5

State v. Scheffield

NO. 03-12-00669-CR (Tex. App. Dec. 30, 2014)

2 Questioning that begins in a noncustodial environment can become custodial in nature at some later point during the
interrogation. "[PJolice conduct during the encounter may cause a consensual inquiry to escalate into custodial
interrogation." Dowthitt v. Stale, 931 S.W.2d 244, 255 (Tex. Crim. App. 1996) (citing Ussery v. State, 651 S.W.2d 767,
770 (Tex. Crim. App. 1983)).

(1) when the suspect is physically deprived of his freedom of action in any significant way;

(2) when a law enforcement officer tells the suspect that he cannot leave;

(3) when law enforcement officers create a situation that would lead a reasonable person to believe that
his freedom of movement has been significantly restricted; and

(4) when there is probable cause to arrest and law enforcement officers do not tell the suspect that he is
free to leave.
Dowthitt v. State, 931 S.W.2d 244, 255 (Tex. Crim. App. 1996). The first through third situations require that
the "restriction upon freedom of movement must amount to the degree associated with an arrest as opposed to
an investigative detention." Id. (citing Stansbury). The fourth situation requires the "officers' knowledge of
probable cause be manifested to the suspect." Id. This can occur either by the officers relating information
substantiating probable cause to the suspect or by the suspect to the officers. Situation four does not
automatical ly establish custody, but rather "custody is established if the manifestation of probable cause,
combined with other circumstances, would lead a reasonable person to believe that he is under restraint to the
degree associated with an arrest." Id.

9

After reviewing the video-recorded questioning of Scheffield, we cannot conclude that it would meet any of the
four custodial situations outlined by the court of criminal appeals in Dowthitt. Scheffield was not physically
deprived of his freedom of action in any significant way. The record shows that Scheffield came to the police
station voluntarily in his own vehicle. He was told twice during his video-recorded interview that he did not
have to answer any questions and that he could leave at any time. Scheffield was never physically restrained.
He was allowed to go to the *9 restroom shortly after requesting to do so. And when Scheffield said that he did
not want to continue with the interview and wanted to finish it the next day, he was allowed to leave the station.
The questioning lasted just over an hour. Detective Schroeder did not create a situation that would lead a
reasonable person to believe that his freedom of movement was significantly restricted. Scheffield's freedom of
movement was not restricted to a degree associated with an arrest.
Although Detective Schroeder did indicate to Scheffield that there was probable cause to arrest him by showing
him the investigation file and telling him that he has "got it all" (referring to evidence against Scheffield),
afterward Detective Schroeder told Scheffield he could leave and allowed him to do so. Based on the totality of
the circumstances, we cannot conclude that Detective Schroeder's statement about the evidence he had
compiled "would lead a reasonable person to believe that he is under restraint to the degree associated with an
arrest."

casetext

6

State v. Scheffield

NO. 03-12-00669-CR (Tex. App. Dec. 30, 2014)

Reviewing the interview in its totality, we conclude that the objective circumstances of the questioning were
non-custodial in nature. The case at hand is similar to many cases considered by the United States Supreme
Court, the court of criminal appeals, and this Court—all of which have come to the conclusion that the accused
was not in custody during questioning, and thus not entitled to Miranda or article 38.22 warnings.3 In these
cases, the accused voluntarily came to the police station, was either told he or she was not under arrest or was
free to leave, was told he or she did not have to answer any questions, and then the accused was allowed to
10 leave the station house after making incriminating statements. *10
3 See, e.g., California v. Beheler, 463 U.S. 1121 (1983); Oregon v. Mathiason, 429 U.S. 492, 493-95 (1977); Estrada v.
State, 313 S.W.3d274, 288-95 (Tex. Crim. App. 2010); Gardner v. State, 306 S.W.3d 274, 293-95 (Tex. Crim. App.
2009); Meekv. State, 790 S.W.2d 618, 620 (Tex. Crim. App. 1990); State v. Dickerson, No. 03-10-00536-CR, 2012 WL
3055526, at *7-8 (Tex. App.—Austin July 27, 2012, pet. refd) (mem. op., not designated for publication).

Invocation of Right to Counsel in a Non-Custodial Setting
Having concluded that Scheffield's interview did not constitute custodial interrogation, we next turn to the issue
of whether the interview should have ceased once Scheffield attempted to invoke his right to counsel.
The trial court's conclusions of law indicate that the court suppressed Scheffield's statements, in part, based on
Scheffield's possible invocation of his right to counsel during questioning. If Scheffield was in custody and
invoked his right to counsel, "the interrogation must cease until an attorney is present." Miranda, 384 U.S. at
474. The custodial interrogation may not continue "unless the accused himself initiates further communication,
exchanges, or conversations with the police." Edwards v. Arizona, 451 U.S. 477, 484-85 (1981). Therefore, if
Scheffield was in custody and invoked his right to counsel, his post-request "responses to further interrogation
may not be used to cast doubt on the clarity of his initial request for counsel." Smith v. Illinois, 469 U.S. 91,91
(1984).

11

However, as we previously discussed, Detective Schroeder's questioning did not rise to the level of custodial
interrogation, and thus Scheffield was not in custody when he possibly invoked his right to counsel. The court
of criminal appeals has clearly stated that when an accused is not in custody, the police are not obligated to stop
questioning him if he invokes his right to counsel. See Estrada v. State, 313 S.W.3d 274,296 (Tex. Crim. App.
2010). In Estrada, the court concluded that Estrada was not in custody when he provided a video-recorded
statement and possibly invoked his right to counsel. Id. at 294. Shortly after being brought into the interview
room, Estrada made some references to a lawyer. Id. at 289. The court concluded that "[ejven if we were to
assume that appellant unambiguously invoked his right to counsel and to silence during the noncustodial *11
interrogation setting, we do not agree that the police were required to honor these invocations."4 Id. at 296.
4 The court went on to adopt the following relevant discussion from its prior unpublished decision in Davis v. State:
Because the appellant was not in custody, law enforcement officials had no obligation under Miranda to
scrupulously honor a request to terminate questioning .... The need to scrupulously honor a defendant's
invocation of Miranda rights does not arise until created by the pressures of custodial interrogation. Without
those pressures, the police are free to attempt to persuade a reluctant suspect to talk, and the immediate
termination of the interrogation after the invocation of rights is simply not required.

This Court has also previously considered a case with a similar fact pattern and came to the same conclusion as
the court of criminal appeals. In Rian v. State, the appellant voluntarily went to the police station to discuss
allegations that she sexually assaulted a child. Rian v. State, No. 03-07-00599-CR, 2009 WL 2476607, at * 1
(Tex. App.—Austin Aug. 11, 2009, pet. refd) (mem. op., not designated for publication). Officers began the

casetext

7

State v. Scheffield

NO. 03-12-00669-CR (Tex. App. Dec. 30, 2014)

interview by telling Rian that the door was unlocked and that she was free to leave at any time. Id. After the
officers began pressing her for the truth, she made a reference to an attorney and pulled out his business card.
Id. at *2. At a certain point during the questioning Rian said, "Well then, I need to call the attorney." The officer
said, "No," and began to play one of the recorded conversations between Rian and the boy. Id. After nearly two
hours of questioning, Rian admitted to having sexual relations with the child. Id. at *3.
In addressing Rian's argument that the interview became a custodial interrogation when her request for counsel
12 was not honored, this Court explained that: *12
[T]he officers had no obligation under the Fifth Amendment to honor those requests [for counsel] if
appellant was not in custody. Appellant's argument in support of her contention is a form of
bootstrapping: she asserts that she was in custody because she was not allowed to speak to the lawyer
and that she was entitled to speak to the lawyer because she was in custody. Appellant does not refer us
to any authority holding that a person's request to speak to counsel, in and of itself, transforms a
noncustodial interrogation into a custodial interrogation under the Fifth Amendment.
Id. at *4 (internal citations omitted). We concluded that "[b]ecause appellant was not in custody, she had no
Fifth Amendment right to counsel and the officers were not obligated to stop questioning her when she asked to
speak to her attorney." Id. at *5.
The same rationale applies in this case. Based on this record, we conclude that Scheffield was not in custody
when he was questioned, and as such Detective Schroeder was not obligated to advise Sheffield of his Miranda
rights. Given that Scheffield was not in custody, the detective also was not obligated to stop questioning
Scheffield after he expressed a reluctance to continue the interview without counsel. As such, Scheffield's
statements are admissible, regardless of whether he requested to have counsel present.5
5 Because we conclude that Scheffield was not in custody and his statements are admissible, we do not address the State's
alternative argument that Scheffield's invocation ofhis right to counsel was ambiguous.

CONCLUSION
We reverse the trial court's order suppressing Scheffield's statements and remand this cause to the trial court for
13 further proceedings. * 13
/s/
Scott K. Field, Justice
Before Chief Justice Jones, Justices Goodwin and Field Reversed and Remanded Filed: December 30, 2014 Do
Not Publish
Estrada, 313 S. W.3d at 296 (quoting Davis v. State, No. AP-74393, 2007 WL 1704071, at *5 (Tex. Crim. App.
June 13,2007)).

casetext

8

APPENDIX

E

NO. CR2011-575
STATE OF TEXAS

§

IN THE DISTRICT COURT

§

vs.

§

MARCUS TYLER SCHEFFIELD

207th JUDICIAL DISTRICT

§

§

COMAL COUNTY, TEXAS

TRIAL COURT’S
FINDINGS OF FACT AND CONCLUSIONS OF LAW
WITH REGARD TO DEFENDANT’S MOTION TO SUPRESS STATEMENTS

"•'l

n

Now comes, Judge Gary L. Steel, 274th District Judge, and files his Findings of Fact and %
Conclusions of Law and shows:

rv>

i

CO

v

3

■T)

1
O

Findings of Fact
(1)

*

■

1

O*:

&

'-I

§3

^

£

Marcus Scheffield, (referred to hereinafter as “Scheffield”) was charged by indictment vSh

<ZO

^

two counts of sexual abuse of a child, both of which are second-degree felonies. Scheffield
was 19 years old at the time of the interview in question. This is Scheffield’s first felony
indictment.

(2)

On August 3,2011, Scheffield was interviewed at the New Braunfels Police Department by
Detective David Schroeder (referred to hereinafter as “Detective”). The room in which the
interview took place had a video recorder and the interview was video-recorded.
Scheffield was advised by Detective that his participation in the interview was voluntary
and that he was free to leave at any time; which was acknowledged by Scheffield.

(3)

Detective did not inform Scheffield of his right to remain silent and his right to have an
appointed or retained lawyer present.

(4)

Scheffield is asked about a prior investigation of an offense by the New Braunfels Police
Department in which he had invoked his 5th Amendment right to counsel.

Sheffield
Page 1 of 5

112

; /

O

’""3

advised Detective that he was asked during that prior investigation if he wanted to answer
questions without a lawyer. Sheffield advised Detective that in the prior investigation, he
had told the investigating officer he would not answer questions without an attorney.
(5)

At approximately thirty (30) minutes into the interview, Detective gave the first indication
to Scheffield that he was also possibly a suspect implicated in the current investigation
involving the sexual assault of a child. Detective begins to show Scheffield some evidence
he has gathered as part of his investigation. Scheffield asks Detective if he can use the
restroom before watching a video of the co-defendant. Detective asks if he wants to watch
the video first. Scheffield responds that he can wait to use the restroom and begins to
watch the videotape. About one minute later, Scheffield asks if the video is long and
Detective then offers to take Scheffield to the restroom if he cannot wait. Detective and
Scheffield then leave the interview room. A few minutes later the video shows Detective
and Scheffield re-entering the interview room.

(6)

Scheffield then asks Detective if he is a witness or a suspect in the sexual assault
investigation. Detective responds that he is a witness and could be a suspect. Detective
then tells Scheffield that he wants the truth from Scheffield and he knows that something
happened between the alleged victim and Scheffield. At this point Scheffield makes the
following statement (approximately 15:59, State’s Exhibit #2):
“As much as I want to continue in this interview and be honest, with my limited
knowledge of, the law 7 am not sure / want to continue this interview right now
without an attorney. It’s just because I don’t know what the New Braunfels
Police Department’s intentions or the County’s with regard to filing charges and I
believe I need.someone who can tell me what to do and what not to do so as much
as I would love to continue and to be honest I don’t know whether I am looking at.
charges and if that’s the case, regardless of whether I am being honest or not...”
(emphasis added)

(7)

After making that statement Scheffield then asks Detective if he is “looking” at filing
Page 2 of 5

113

-

0
charges against him. Detective then tells Scheffield that this is Scheffield’s chance to tell
him exactly what happened because Detective already knows Scheffield has been deceptive
with him. Detective now reveals that he has previously gathered a lot of other evidence
and he “has it all.” Detective again tells Scheffield this is his opportunity to be truthful.
Scheffield further states that he was afraid because he did not want to “nail his own coffin
shut.”

Scheffield then asks Detective if he is honest can he still leave, and Detective

responds that he is free to leave but Scheffield has to tell him the truth.
(8)

At this point, Scheffield states that the allegations of oral sex and intercourse are true.

(9)

None of Scheffield’s post request statements were initiated by Scheffield.

(10) Detective next asks Scheffield to start from the beginning of the story. Scheffield states
that he needs to get some air and then asks if he can come back to the police department the
following day to finish. Scheffield then leaves and does not return. This is the end of the
video.

(11) On June 15, 2012, Scheffield filed a Motion to Suppress Statements,

Specifically,

Scheffield sought to suppress statements made by him to law enforcement during the
interview at the New Braunfels Police Department on August 3, 2011. Scheffield argued
that he was deprived of his right to counsel, and/or that during the interview he invoked his
right to counsel. A hearing on Defendant’s Motion to Suppress Statements was held on
September 27, 2012, before the Honorable Gary L. Steel, 274*h Judicial District Court. The
State and Scheffield agreed to allow the Trial Court to rule on the Motion to Suppress
based on the submission of State’s Exhibit #1 (offense report) and State’s Exhibit #2 (copy
of Scheffield’s interview at the New Braunfels Police Department)
(12) On October 1, 2012, the Honorable Gary L. Steel found that Scheffield was deprived of his
right to counsel and that Scheffield did not make an intelligent and knowing waiver of that
Page 3 of 5

114

3

3

right. The Order granting Defendant’s Motion to Suppress was entered and filed of record
on or about October 1,2012.

(13) On October 8, 2012, the Criminal District Attorney for Comal County, Texas filed a
Certificate of Appeal and Notice of Appeal in the instant cause.
Conclusions of Law
(1)

Sheffield articulated his desire to have counsel present at 15:59 of the interview (State’s
Exhibit 2) unambiguously and sufficiently clearly that Detective Schroeder should have
understood the statement to be a request for an attorney. See Davis v. United States, 512
U.S. 452, 459, 114 S.Ct. 2350, 129 L.Ed.2d 362 (1994).

(2)

When a suspect asserts his right to counsel, all interrogation must cease until counsel is
provided or until the suspect personally reinitiates the conversation. Neither was done.
Edwards v. Arizona, 451 U.S. 477, 484-85, 101 S.Ct. 1880, 68 L.Ed.2d 378 (1981);
Dinkins v. State, 894 S.W.2d 330, 350 (Tex.Crim.App.1995).

(3)

Any post-request statements by Scheffield, “may not be used to cast retrospective doubt
on the clarity of the initial request itself.” See Smith v. Illinois, 469 U.S. 91, 100, 105
S.Ct. 490, 83 L.Ed.2d 488 (1984) (“under the clear logical force of settled precedent, an
accused s postrequest responses to further interrogation may not be used to cast
retrospective doubt on the clarity of the initial request itself.”).

Because Scheffield

clearly invoked his right to counsel, no subsequent exchange with Detective Schroeder
(unless the suspect has initiated it himself) can serve to undermine the clarity of the
invocation. State v. Gobert, 275 S.W.3d 888, 894-895 (Tex.Cr.App. 2009).

Page 4 of 5

115

m

; '!>

(4)

In failing to honor Sheffield's unambiguous and unqualified condition, and instead
continuing to interrogate him in an effort to persuade him to talk, Detective Schroeder
violated Sheffield’s state and federal constitutional right to counsel.

Signed this(V$~*

day of

kjnwMb/F

., 2012.

Judge Gary L. Steel
2741 District Judge

Page 5 ofS

116

